                                                               Issue Date
                                                                            July 27, 2007
                                                               Audit Report Number
                                                                        2007-LA-1014




TO:         Dominique Blom, Deputy Assistant Secretary, Office of Public Housing
              Investments, PI

            Stephen Schneller, Director, San Francisco Office of Public Housing, 9APH



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the County of San Mateo, Belmont, California, Did
         Not Use HUD Program Funds in Accordance with HUD Requirements


                                   HIGHLIGHTS

 What We Audited and Why

      We reviewed the Housing Authority of the County of San Mateo’s (Authority) Housing
      Choice Voucher program to determine whether the Authority used program funds in
      accordance with U.S. Department of Housing and Urban Development (HUD) rules and
      regulations. The HUD San Francisco Office of Public Housing requested that the Office
      of Inspector General (OIG) review the financial operations of the Authority due to
      concerns about the use of program funds.

 What We Found
      The Authority did not use Housing Choice Voucher program funds in accordance with
      requirements. Specifically, the Authority

             •   Used $573,485 in Housing Choice Voucher program funds to overlease the
                 Moving to Work Demonstration (Moving to Work) program. Further, in an
                 attempt to remedy the overleasing, the Authority improperly implemented a
                 Moving to Work preference in its Housing Choice Voucher program that
                 impacted 71 families on the Housing Choice Voucher program waiting list.
            •   Loaned $1.4 million in Housing Choice Voucher program funds to pay for
                construction costs of the El Camino Village low-rent public housing project.
            •   Loaned $500,000 in Midway Village Comprehensive Improvement Assistance
                Program grant funds to reimburse the Housing Choice Voucher program for
                El Camino Village construction cost overruns.
            •   Transferred $115,602 in portability administrative fees to its nonfederal
                account.
            •   Overdrew its Housing Choice Voucher program operating reserve.

What We Recommend
     We recommend the Deputy Assistant Secretary for the Office of Public Housing
     Investments require the Authority to

            •   Reimburse the Housing Choice Voucher program $573,485 from the Moving
                to Work program or from nonfederal funds for the overleasing of the Moving
                to Work program and more than $1.27 million used to house Moving to Work
                program participants moved to the Housing Choice Voucher program.

     We recommend the director of HUD’s San Francisco Office of Public Housing require
     the Authority to

            •   Reimburse the Housing Choice Voucher program $1.4 million plus interest
                from nonfederal funds.
            •   Reimburse Midway Village $500,000 plus interest from nonfederal funds.
            •   Reimburse the Housing Choice Voucher program $115,602 plus interest from
                nonfederal funds.
            •   Implement controls and establish policies and procedures for the accounting
                and use of Housing Choice Voucher program operating reserves.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the Authority a draft report on June 28, 2007, and held an exit conference
     with officials on July 3, 2007. The Authority provided written comments on July 13,
     2007. The Authority generally agreed with our report findings but disagreed with some
     of the report’s conclusions and recommendations. The complete text of the auditee’s
     response, along with our evaluation of that response, can be found in appendix B of this
     report.




                                             2
                               TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
   Finding 1: The Authority Overleased Its Moving to Work Program and Improperly    5
              Implemented a Waiting List Preference
   Finding 2: The Authority Loaned $1.4 Million in Housing Choice Voucher Program   9
              Funds to Exceed the Total Development Cost Limit Without HUD
              Approval
   Finding 3: The Authority Loaned $500,000 in Midway Village Comprehensive         11
              Improvement Assistance Program Grant Funds for El Camino Village
              Construction Cost Overruns
   Finding 4: The Authority Used $115,602 in Housing Choice Voucher Program         13
              Portability Administrative Fees to Build Up Its Nonfederal Account
   Finding 5: The Authority Overdrew its Housing Choice Voucher Program             15
              Operating Reserves by $1.37 Million

Scope and Methodology                                                               19

Internal Controls                                                                   20

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                21
   B. Auditee Comments and OIG’s Evaluation                                         22
   C. Applicable Regulations                                                        40




                                            3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the County of San Mateo (Authority) was created pursuant to the State
Health and Safety Code by the San Mateo County (County) Board of Supervisors in March 1941
to provide housing assistance to low and moderate-income families. The Board of Supervisors
has established oversight responsibility for the Authority in a separate legal capacity as the
Authority’s board of commissioners.

The Authority is currently part of the County’s Department of Housing. The County established
the Department of Housing on January 11, 2005. The Department of Housing includes the
Authority as well as the County’s Housing and Community Development Office. The director of
housing, deputy director, and financial services manager are County employees who oversee
both the Authority and the Housing and Community Development Office. All other staff
members are employees of the Authority. Before the Department of Housing was created, the
Authority functioned under the County’s Human Services Agency. The Authority maintains two
conventional low-rent public housing developments, Midway Village and El Camino Village. El
Camino Village is a 30-unit facility in unincorporated San Mateo County that was completed in
2001; Midway Village is a 150-unit facility in Daly City. In addition, the Authority owns a 60-
unit project-based Section 8 facility at Half Moon Bay. It also administers more than 4,000
Section 8 vouchers, including those under the Moderate Rehabilitation and Moving to Work
Demonstration (Moving to Work) programs.

The Office of Inspector General (OIG) last conducted an audit of the Authority’s procurement
and contracting in 2003 (Audit Report Number 2003-LA-1002). The review found that the
Authority did not follow procurement and contracting requirements. The report identified
$233,350 in unreasonable and excessive costs and $90,000 in unsupported expenditures charged
to federally funded programs. Audit recommendation 1B relating to $233,350 in unreasonable
and excessive costs remains open, pending its final payment on or before July 1, 2007.

Our objective was to determine whether the Authority used program funds in accordance with
U.S. Department of Housing and Urban Development (HUD) requirements.




                                              4
                                RESULTS OF AUDIT

Finding 1: The Authority Overleased Its Moving to Work Program and
Improperly Implemented a Waiting List Preference
The Authority overleased its Moving to Work program in violation of its agreement with HUD.
In an attempt to remedy the overleasing, the Authority implemented a Moving to Work program
preference in its Housing Choice Voucher program in violation of HUD requirements. The
overleasing and improper preference occurred due to mismanagement of the Moving to Work
and Housing Choice Voucher programs. As a result, the Authority misused $573,485 in Housing
Choice Voucher program funds to overlease the Moving to Work program. Further, the
implementation of an improper Housing Choice Voucher program preference impacted 71
families on the Housing Choice Voucher waiting list.


 Moving to Work Program Was
 Limited to 300 Families

       The Authority entered into a Moving to Work program agreement with HUD in May
       2000. The agreement permitted the Authority to use a portion of its existing Housing
       Choice Vouchers to house up to 300 families under the Moving to Work program. The
       Moving to Work program functions in a similar manner to the Housing Choice Voucher
       program in that the families are free to choose housing in the private rental market and
       the housing authority pays a subsidy to the landlord on behalf of the family. The family
       pays the difference between the rent charged and the amount of the subsidy.

       However, the Moving to Work program differs from the Housing Choice Voucher
       program in that it gives incentives to families with children when the head of household
       is working, seeking work, or preparing for work by participating in job training,
       educational programs, or programs that assist people in obtaining employment and
       becoming economically self-sufficient. The program also places a six-year housing
       assistance limit on all Moving to Work program families.

 The Authority Misused
 $573,485 to Overlease the
 Program

       The Authority‘s Moving to Work program initially generated income, and the program
       accumulated a large amount of operating reserves. In April 2002, the Authority began
       using the operating reserve since the cost of the program was exceeding the amount of
       Moving to Work funding provided by HUD. Although the program was already
       operating beyond the funding provided by HUD, the Authority continued placing families




                                               5
      into the program. It began overleasing the Moving to Work program in June 2002, and
      by December 2002, the program was overleased by more than 100 families.

      Due to significant overleasing of the program, the Authority used up all of the Moving to
      Work program operating reserves and began transferring Housing Choice Voucher
      program funds to the Moving to Work program in July 2004. It recorded the transfers as
      loans from the Housing Choice Voucher program to the Moving to Work program. As of
      March 2007, the Moving to Work program owed $1.15 million to the Housing Choice
      Voucher program. Although the Moving to Work program agreement gave the Authority
      the flexibility to use Housing Choice Voucher program funds, it did not permit the use of
      the funds to overlease the program. Since Housing Choice Voucher program funds were
      used to overlease the Moving to Work program, fewer funds were available to administer
      the Housing Choice Voucher program. As a result, the overleasing impacted those on the
      Housing Choice Voucher program waiting list. Therefore, any Housing Choice Voucher
      program funds used to overlease the Moving to Work program were used for ineligible
      purposes. The Authority began using Housing Choice Voucher program funds to pay for
      Moving to Work program overleasing in July 2004. From July 1, 2004, through the end
      of the last fiscal year of overleasing, June 30, 2005, the Authority used $573,485 in
      Housing Choice Voucher program funds ($552,441 in housing assistance payments and
      $21,044 in administrative fees) to pay for Moving to Work program overleasing.


The Authority Improperly
Implemented a Waiting List
Preference

      The Authority did not want to continue overleasing the Moving to Work program. To
      reduce the number of families in the program, it created a preference for Moving to Work
      program participants on the Housing Choice Voucher program waiting list. The
      preference allowed selection of Moving to Work program participants ahead of other
      applicants on the Housing Choice Voucher program waiting list. From January through
      June 2005, the Authority moved 71 Moving to Work program families to the Housing
      Choice Voucher program using the preference. The preference delayed the opportunity
      for 71 other eligible applicants to receive Housing Choice Voucher program assistance.

      The 71 converted Moving to Work program families held a wide range of spots on the
      Housing Choice Voucher program waiting list. This meant that some of the converted
      families would have been able to convert to the Housing Choice Voucher program
      quickly without the preference, while others who received the preference would still be
      waiting to convert. For example, the lowest ranking converted Moving to Work program
      family (number 11,301 on the waiting list) was just 32 positions higher than the last
      applicant on the Housing Choice Voucher program waiting list.




                                              6
The Authority’s Preference
Impacted 71 Families on the
Housing Choice Voucher
Program Waiting List

         The Moving to Work program preference was not included in the Authority’s
         Administrative Plan. Federal regulations require that housing authorities include waiting
         list preferences in its Administrative Plan. As a result, 71 families on the Housing
         Choice Voucher waiting list were impacted by the improperly implemented Moving to
         Work preference. Inclusion of the preference in the administrative plan is necessary to
         ensure fair treatment to all applicants since this is the document that prescribes all of the
         Authority’s operating policies and procedures for the Housing Choice Voucher program.

    Conclusion

         The Authority overleased its Moving to Work program beyond the 300-family limitation
         in its agreement with HUD. Since the program did not have funds available to finance
         the overleasing, the Authority misused $573,485 in Housing Choice Voucher program
         funds. Since funds were inappropriately used to house Moving to Work program
         applicants rather than Housing Choice Voucher program applicants, the overleasing
         impacted those on the Housing Choice Voucher program waiting list. It attempted to
         remedy the overleasing by implementing a preference, resulting in the transfer of 71
         Moving to Work program families to the Housing Choice Voucher program. Further, the
         Authority violated HUD requirements since it did not include the preferences in its
         Administrative Plan. As a result, the transfer of Moving to Work program families to the
         Housing Choice Voucher program impacted 71 families on the Housing Choice Voucher
         program waiting list.

    Recommendations


         We recommend that the Deputy Assistant Secretary for the Office of Public Housing
         Investments, PI require the Authority to

         1A. Immediately repay the Housing Choice Voucher program $573,485 1 from the
         Moving to Work program or from nonfederal funds for the overleasing of the Moving to
         Work program between July 1, 2004, and June 30, 2005.




1
 Amount is based on the average unit-month housing assistance payments and administrative fee expenses for the
Moving to Work program. This calculation methodology was suggested by the Office of Housing Voucher
Programs, HUD headquarters.


                                                       7
        1B. Reimburse the Housing Choice Voucher program $1.23 million 2 used to house the
        71 Moving to Work program participants moved to the Housing Choice Voucher
        program from July 1, 2005, through June 30, 2006, and repay this amount to the Housing
        Choice Voucher program from nonfederal funds.

        1C. Take steps to ensure that it does not improperly implement any Housing Choice
        Voucher program waiting list preferences.

        1D. Implement policies and procedures to ensure that the Moving to Work program is
        not overleased.




2
  Amount is based on the average unit-month housing assistance payments ($1,146,221) and administrative fee
expenses ($86,103) used to house 71 Moving to Work participants moved to the Housing Choice Voucher program.
The amounts were calculated by determining the average annual Moving to Work subsidy cost multiplied by 71.
This calculation methodology was suggested by the Office of Housing Voucher Programs, HUD headquarters.


                                                     8
Finding 2: The Authority Loaned $1.4 Million in Housing Choice
Voucher Program Funds to Exceed the Total Development Cost Limit
Without HUD Approval
The Authority did not obtain approval from HUD to loan $1.4 million in Housing Choice
Voucher program funds toward El Camino Village construction cost overruns. This occurred
because the Authority did not follow HUD regulations which require HUD approval to use funds
to exceed a project’s total development cost. As a result, the Housing Choice Voucher program
was deprived of scarce HUD funds needed to provide housing to program participants.


 The Authority Received HUD
 Approval to Construct New
 Public Housing


       On June 7, 1994, the Authority obtained a $4.3 million development grant from HUD to
       construct a 30-unit low-rent public housing development, which the Authority later
       named El Camino Village. It anticipated El Camino Village development costs to exceed
       the development grant amount provided by HUD and submitted a development project
       grant annual contributions contract showing an additional $400,000 in funding coming
       from a donation of the Authority’s Housing Choice Voucher program operating reserves.

       Despite the additional donation of funds, the development continued to incur considerable
       cost overruns. The Authority looked to private financing of $1.4 million and $652,000 in
       operating reserves to cover the overruns and prepared an amended Development Cost
       Budget/Cost Statement (form HUD-52484) on December 17, 1999. The statement was
       signed by the Authority’s former executive director but was not approved by HUD. The
       Authority was unable to provide a HUD-executed copy or a more recent version of the
       statement. OIG also contacted the HUD San Francisco Office of Public Housing for
       evidence of HUD approval. HUD also did not have any documentation indicating it
       approved of the use of Housing Choice Voucher program funds for El Camino Village
       construction cost overruns.

 The Authority Loaned $1.4
 million in Housing Choice
 Voucher Reserves for Public
 Housing without HUD
 Approval

       The Authority did not obtain the $1.4 million in private financing because HUD would
       not subordinate its interest in the property to the private lender. Since the Authority was
       unable to obtain private financing to pay for the overruns, it recorded a net amount of
       $1.8 million as a loan to the El Camino Village development from its Housing Choice
       Voucher program operating reserve. Although the Authority is permitted to use Housing



                                                9
      Choice Voucher program operating reserves to exceed a project’s total development cost,
      it must obtain HUD approval. The Authority was approved to use $400,000 of its
      Housing Choice Voucher program operating reserves for El Camino Village. However,,
      the Authority was unable to provide any required documentation showing that HUD
      approved the use of the additional $1.4 million in Housing Choice Voucher program
      operating reserves used for construction of the El Camino Village development.


Conclusion


      Although the Authority obtained approval to use $400,000 in Housing Choice Voucher
      program funds, it could not provide any evidence that HUD approved the loan of an
      additional $1.4 million in Housing Choice Voucher program funds. This occurred
      because the Authority did not follow HUD regulations which require HUD approval to
      use funds to exceed a project’s total development cost. As a result, the Housing Choice
      Voucher program was deprived of scarce HUD funds needed to provide housing to
      program participants.

 Recommendations



      We recommend that the director of the Office of Public Housing require the Authority to

      2A. Record the $400,000 transferred from its Housing Choice Voucher program
      operating reserve to the El Camino Village development as a donation (as approved by
      HUD) and, accordingly, reduce the Housing Choice Voucher program operating reserve
      balance by $400,000.

      2B. Support the use of $1.4 million from the Housing Choice Voucher program
      operating reserve or reimburse the reserve $1.4 million from nonfederal funds.

      2C. Determine the applicable interest that the $1.4 million would have earned to date and
      reimburse the reserve such applicable interest from nonfederal funds if the use of funds
      cannot be supported.




                                             10
Finding 3: The Authority Loaned $500,000 in Midway Village
Comprehensive Improvement Assistance Program Grant Funds for El
Camino Village Construction Cost Overruns
The Authority loaned $500,000 in Midway Village Comprehensive Improvement Assistance
Program grant funds to reimburse the Housing Choice Voucher program for El Camino Village
construction cost overruns. The Authority originally loaned $2.3 million from the Housing
Choice Voucher program to pay for these overruns. Since El Camino Village lacked the funds
necessary to repay the Housing Choice Voucher program, the Authority disregarded HUD
requirements and loaned $500,000 in Midway Village Comprehensive Improvement Assistance
Program grant funds to El Camino Village. It immediately used the funds to reduce El Camino
Village’s outstanding balance due to the Housing Choice Voucher program to $1.8 million. The
Authority's use of Midway Village Comprehensive Improvement Assistance Program grant
funds to pay for El Camino Village construction costs reduced funds available to operate and
maintain the Midway Village development. Further, Midway Village may need these scarce
program funds to pay for contingent legal liabilities of more than $800,000.


 The Authority Received Public
 Housing Grants for Midway
 Village


       The Authority received two Comprehensive Improvement Assistance Program grants,
       totaling more than $1 million, in federal fiscal years 1998 and 1999. The primary
       purpose of the program was to help smaller public housing authorities correct physical,
       management, and operating deficiencies and keep units in its public housing stock as safe
       and desirable homes for low-income families. According to HUD requirements,
       authorities receiving funds through this program are required to spend the funds based on
       a HUD-approved Comprehensive Improvement Assistance Program budget. Its original
       HUD-approved program budgets indicated that the funds would be used toward capital
       improvements and repairs at its Midway Village public housing development.

       Before the funds were drawn down, new Comprehensive Improvement Assistance
       Program requirements were published in the February 18, 1999, Federal Register (64 FR
       8201) and in HUD PIH [Public and Indian Housing] Notice 99-38. The new
       requirements amended Section 9 of the U.S. Housing Act (42 U.S.C. 1437g) and
       permitted small housing authorities, including the Authority, to use remaining program
       funds for eligible capital or operating purposes.

       In March 2001, the Authority submitted revised budgets and informed HUD that it
       planned to draw down all remaining Comprehensive Improvement Assistance Program
       grant funds into the Midway Village operations account. The Authority explained that
       due to environmental clearance issues at Midway Village, it would not be able to make
       the proposed capital improvements. The Authority indicated that it would spend the



                                              11
     funds on basic Midway Village management and maintenance, expenses derived from
     any additional environmental testing, and possible relocation costs for Midway Village
     residents after the testing results were known.

The Authority Loaned $500,000
in Grant Funds for Ineligible
Purposes

     In June 2001, The Authority transferred all of its Comprehensive Improvement
     Assistance Program funds, totaling more than $1 million, into its Midway Village
     operations account. It used a portion of the funds to offset operating deficits incurred due
     to ongoing environmental clearance issues at Midway Village. In February 2002, the
     Authority inappropriately transferred $500,000 from the Midway Village operations
     account to its newly constructed El Camino Village development. It recorded the
     transaction as a loan from Midway Village to El Camino Village. Before the transfer, the
     Authority incurred significant construction cost overruns during the development of El
     Camino Village and loaned $2.3 million in Housing Choice Voucher program funds to
     pay for the deficit. It immediately used the Midway Village funds to reduce El Camino
     Village’s outstanding balance due to the Housing Choice Voucher program to $1.8
     million.


Conclusion


     As of February 2007, El Camino Village had not repaid any of the $500,000 borrowed
     from Midway Village in 2002. Since Midway Village did not have this cash available, it
     was unable to use the funding toward maintenance and operation of the development or
     earn any interest income on the funds. Use of the Midway Village funds for El Camino
     Village construction-related costs was not an eligible capital or operating expense.

Recommendation

     We recommend that the director of the Office of Public Housing require the Authority to
     immediately

     3A. Cease the practice of using public housing funds for ineligible purposes and
     reimburse Midway Village $587,650 ($500,000 plus $87,650 in interest) from El Camino
     Village or from nonfederal funds.




                                              12
Finding 4: The Authority Transferred $115,602 in Housing Choice
Voucher Program Portability Administrative Fees to Its Nonfederal
Account
The Authority did not follow HUD requirements and transferred $115,602 in Housing Choice
Voucher program portability administrative fees to its nonfederal account. These transfers
occurred due to the Authority’s improper policies on the use of portability administrative fees.
As a result, the Housing Choice Voucher program had fewer funds available to administer the
Authority’s incoming portability vouchers.


 The Authority Transferred
 $115,600 to Its Nonfederal
 Account


       The Authority transferred $115,602 in Housing Choice Voucher program portability
       administrative fees to increase its nonfederal account. The term “portability” refers to the
       process of leasing a dwelling unit with housing voucher tenant-based assistance outside
       the jurisdiction of the authority that initially issued the family its voucher. The housing
       authority with jurisdiction over the area to which the family moves is called the receiving
       housing authority. In portability, the receiving authority may bill the initial authority for
       housing assistance payments and 80 percent of the initial administrative fees to cover
       assistance for a portable family.

       From July 2004 through June 2006, the Authority billed initial housing authorities for
       housing assistance payments and 80 percent of the initial administrative fees (the initial
       authority retains 20 percent of the administrative fee). It received the administrative fees
       to cover costs incurred in performing its administrative responsibilities for the Housing
       Choice Voucher program. These costs include conducting all interim and annual
       reexaminations for the family and all housing quality standards inspections of the
       family’s unit. Further, HUD specifically requires that all Housing Choice Voucher
       program funds, including administrative fees, be used for the Housing Choice Voucher
       program exclusively. Instead of using the fees to administer the program or crediting the
       amount of fees to its Housing Choice Voucher program operating reserves, the Authority
       transferred $115,602 to its nonfederal account in violation of HUD requirements.




                                                13
    Recommendation



        We recommend that the director of the Office of Public Housing require the Authority to

        4A. Cease the practice of transferring portability administrative fees to its nonfederal
        account.

        4B. Immediately reimburse the Housing Choice Voucher program $120,371, which
        includes the $115,602 in administrative fees plus $4,769 3 in interest, from nonfederal
        funds.




3
 Amount calculated based on interest earned on quarterly pooled earnings with the County of San Mateo from July
1, 2004 through June 30, 2006.


                                                      14
Finding 5: The Authority Overdrew Its Housing Choice Voucher
Program Operating Reserve
The Authority overdrew its Housing Choice Voucher program operating reserve by $1.37
million. It used its Housing Choice Voucher program operating reserve to pay for program
operating deficits and to loan funds to other programs. The Authority did not appropriately
monitor the funds that it loaned to other programs to ensure it did not exceed the amount
available in the operating reserve. As a result, the Authority was inappropriately loaning current
year administrative fees and housing assistance payment funds. This inappropriate use of funds,
if not repaid when needed, may leave the Authority with insufficient resources necessary to
operate the program and cover future administrative fee shortfalls.


 HUD Requires Accounting of
 the Housing Choice Voucher
 Program Operating Reserve


       HUD requires public housing authorities to maintain an operating reserve for the Housing
       Choice Voucher program. The Authority maintained such an account. At the end of
       each fiscal year, the operating reserve is credited the difference between administrative
       fees paid by HUD and housing authority program administrative expenses. If
       administrative expenses exceed administrative fees paid by HUD during the year, the
       authority must use funds in the operating reserve to fund the deficit. For operating
       reserves earned before fiscal year 2004, HUD also allows housing authorities to use the
       funds for other housing purposes permitted by state and local law. However, they cannot
       use operating reserves earned from fiscal year 2004 and later for other housing purposes
       and may only use the funds for the Section 8 program.

 The Authority Advanced $2.3
 Million in Reserves to El
 Camino Village

       The Authority incurred significant cost overruns during construction of its El Camino
       Village low-rent public housing development. In February 2000, it began advancing
       funds from the operating reserve to the El Camino Village development to pay for the
       overruns. The Authority advanced $2.3 million in operating reserves to El Camino
       Village between February 2000 and June 2001. It recorded the $2.3 million in advances
       as a loan from the Housing Choice Voucher program but did not make a corresponding
       adjustment to the operating reserve account. At the end of fiscal year 2001, the operating
       reserve balance was $4.6 million (see finding 2).




                                                15
     In February 2002, the Authority inappropriately used $500,000 in Midway Village
     Comprehensive Improvement Assistance Program funds (see finding 3) to reduce El
     Camino Village’s outstanding balance due to the Housing Choice Voucher program to
     $1.8 million. This transfer had no effect on the operating reserve balance, only on the
     outstanding loan balance. However, the Authority incurred operating deficits in its
     Housing Choice Voucher program during the year, and it reduced the operating reserve
     balance to $4.2 million at the end of fiscal year 2002.

     At the end of fiscal year 2003, the Authority gave more than $2 million in operating
     reserves to its Midway Village and Shelter Plus Care programs in accordance with HUD
     requirements. The Authority reduced the operating reserve balance accordingly, leaving
     approximately $2 million remaining in the operating reserve account.

The Authority Advanced $1.25
Million in Operating Reserve
Funds to the Moving to Work
Program

     The Authority also used operating reserve funds to pay for overruns in its Moving to
     Work program. From July 2004 through June 2005, it advanced operating reserves to
     finance overleasing (see finding 1) and operating deficits in the Moving to Work
     program. The Authority advanced $1.25 million in reserves to the Moving to Work
     program. Of this amount, the Moving to Work Program has repaid approximately
     $100,000 to the Housing Choice Voucher program, resulting in a remaining balance of
     $1.15 million due to the Housing Choice Voucher program. The Authority accounted for
     advances from the Housing Choice Voucher program to the Moving to Work program as
     loans to the Moving to Work program, and it did not directly reduce the operating
     reserve.

     According to the Authority’s financial statements, the operating reserve balance at the
     end of fiscal year 2006 was approximately $1.58 million. However, this balance does not
     reflect operating reserve loans of $1.8 million and $1.15 million to El Camino Village
     and the Moving to Work program described above. Therefore, the Authority misstated
     and overdrew the Housing Choice Voucher program operating reserve. HUD regulations
     require that if the operating reserve is used for purposes not related to the Section 8
     program, the operating reserve account shall be debited and cash credited for the amount
     of cash withdrawn for such other purposes. Further, operating reserves are considered
     used when expended.




                                            16
The Authority Overdrew the
Housing Choice Voucher
Program Operating Reserve by
$1.37 Million

     The Authority began overdrawing the operating reserve at the end of fiscal year 2004,
     and by the end of fiscal year 2006, it had overdrawn the operating reserve by
     approximately $1.37 million ($1.58 million according to Authority financials less $1.8
     million to El Camino Village and $1.15 million to the Moving To Work program – see
     table below). As a result of the Authority’s significant overdrawing of the operating
     reserve, it used funding intended for future periods to pay for current program deficits.
     Further, if any delays occur in Housing Choice Voucher program funding, the Authority
     may not have the resources necessary to operate the program.

                        Housing Choice Voucher program operating reserve

                               End balance          Loan of           Loan of
                                                                                      End balance
                            (fiscal year end,     operating         operating
                                                                                    (OIG calculated,
           Date               according to      reserves to El    reserves to the
                                                                                      with loans to
                                 financial         Camino        Moving to Work
                                                                                    ECV and MTW)
                               statements)      Village (ECV)    program (MTW)

       June 30, 2000        $4,925,371          $(1,050,000)                        $ 3,875,371
       June 30, 2001        $4,632,988          $(2,300,000)                        $ 2,332,988
       June 30, 2002        $4,282,151          $(1,800,000)                        $ 2,482,151
       June 30, 2003        $2,075,615          $(1,800,000)                        $ 275,615
       June 30, 2004        $1,581,655          $(1,800,000)                        $ (218,345)
       June 30, 2005        $1,451,742          $(1,800,000)     $(1,247,927)       $(1,596,185)
       June 30, 2006        $1,581,888          $(1,800,000)     $(1,156,375)       $(1,374,487)



Conclusion

     The Authority did not have controls in place to ensure funds it loaned from the operating
     reserve did not exceed the amount available. As a result, it overdrew the Housing Choice
     Voucher program operating reserve by $1.37 million. If all ineligible and unsupported
     costs related to the operating reserve from this report are repaid, the Authority will have a
     positive cash balance in its operating reserve account. However, should funds not be
     returned to the account during the audit resolution process with HUD, the Authority
     should fund any operating reserve deficits as a result of overdrawing the reserve from
     nonfederal funds. Further, the Authority must ensure that it properly accounts for
     Housing Choice Voucher program funds and operating reserves for budgeting and
     reporting purposes.




                                                17
Recommendations



    We recommend that the director of the Office of Public Housing require the Authority to

    5A. Properly account for $576,515 of the $1.15 million in Housing Choice Voucher
    program loans ($1.15 million less $573,485 for overleasing in finding 1 through one of
    the following methods:

          1) Deducting $576,515 from the Housing Choice Voucher program operating
           reserve and removing the accounts receivable/accounts payable entry between the
           Moving to Work program and the Housing Choice Voucher program,

          2) Reimbursing the Housing Choice Voucher program $576,515 from the
           Moving to Work program or from nonfederal funds, or

          3) Removing the accounts receivable from the Housing Choice Voucher program
           balance sheet and create a contra-asset account for the operating reserve loan to
           ensure that the Authority does not overdraw the Housing Choice Voucher
           program operating reserve.

    5B. Implement controls and establish policies and procedures for the accounting and use
    of Housing Choice Voucher program funds and operating reserves that will ensure
    sufficient and appropriate funds are available prior to use.

    5C. If all ineligible and unsupported costs related to the operating reserve in this report
    are not returned to the account during the audit resolution process, the Authority should
    fund any operating reserve deficits from nonfederal funds as a result of overdrawing the
    reserve.

    5D. Discontinue the use of the operating reserves for any purpose other than actual
    administrative deficits until loans have been repaid and HUD has determined a sufficient
    reserve is available to cover expected shortfalls over the term of the Annual
    Contributions Contract.




                                             18
                        SCOPE AND METHODOLOGY

We performed on-site work at the Authority, located in San Mateo, California from November
2006 through April 2007. Our review generally covered the period July 1, 2004, through June
30, 2006. This period was adjusted as necessary. Our objective was to determine whether the
Authority used program funds in accordance with U.S. Department of Housing and Urban
Development (HUD) requirements.

To accomplish our objective, we

   •   Interviewed HUD and Authority personnel to obtain background information about the
       Authority and its Housing Choice Voucher program.

   •   Reviewed Authority accounting records including audited financial statements, general
       ledgers, bank statements, and supporting documentation.

   •   Reviewed HUD requirements and regulations regarding the use of HUD program funds.

We performed our review in accordance with generally accepted government auditing standards.




                                              19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

              •   Administering the Housing Choice Voucher program in compliance with
                  HUD regulations,
              •   Maintaining complete and accurate records, and
              •   Safeguarding HUD program resources.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.

 Significant Weaknesses


       Based on our review, we believe the following items are significant weaknesses:

              •   The Authority did not have controls in place to ensure that its records were
                  complete and accurate (see findings 2 and 5).
              •   The Authority lacked effective procedures and controls over the use of
                  Housing Choice Voucher program funds to ensure compliance with laws and
                  regulations (see findings 1, 2, 3, 4 and 5).
              •   The Authority did not have controls in place to safeguard scarce HUD
                  program resources (see findings 1, 2, 3, 4, and 5).




                                               20
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

      Recommendation number              Ineligible 1/             Unsupported 2/

                 1A                                $573,485
                 1B                              $1,232,324
                 2B                                                         $1,400,000
                 3A                                $587,650
                 4A                                $120,371
                Total                            $2,513,830                 $1,400,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                            21
      Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments

Comment 1




                         22
Comment 1




            23
Comment 2




            24
Comment 3




Comment 4




            25
Comment 5

Comment 6




            26
Comment 7




Comment 8




Comment 9


Comment 10




             27
Comment 11




Comment 12




Comment 13




             28
Comment 14




             29
Comment 15




Comment 16




             30
Comment 17




Comment 18




             31
Comment 19




Comment 20




Comment 21




             32
Comment 22


Comment 23




             33
Comment 24




             34
35
                         OIG Evaluation of Auditee Comments

Comment 1   The portion of Housing Choice Voucher program funds used to overlease the
            Moving to Work program were loaned in violation of the Authority’s Moving to
            Work agreement with HUD. Article I, B of the agreement states that funds
            provided under Section 8 of the 1937 Act can be used to fund HUD approved
            Moving to Work activities. However, Article I, G limits the use of HUD
            assistance to that which is authorized in the agreement’s Statement of
            Authorizations. Section 1, B of the Statement of Authorizations specifically
            states that the Moving to Work program may include up to 300 families.
            Therefore, its agreement only permitted use of Housing Choice Voucher program
            funds to the extent needed to operate the Moving to Work program up to the 300
            unit threshold. Therefore, any Housing Choice Voucher program funds used to
            pay for Moving to Work program costs beyond those 300 units were used in
            violation of its Moving to Work agreement with HUD. The Housing Choice
            Voucher program advanced a total of $1.2 million to the Moving to Work
            program. Of this amount, $573,485 was used to lease the Moving to Work
            program beyond the 300 units authorized in its agreement. This is the amount of
            questioned costs in the audit finding.

Comment 2   The Moving to Work preference was not properly implemented. The only local
            preference listed in the Authority’s Administrative Plan is for residents of San
            Mateo County. Although a Moving to Work preference is not specifically
            disallowed, 24 CFR 982.207(a)(1) requires that PHA selection preferences be
            fully described in the PHA administrative plan. Since the preference was not
            included in the administrative plan, it was not an eligible preference. The finding
            has been revised accordingly, to better illustrate our position.

Comment 3   The authority did not follow HUD regulations. The preference was not included
            in its administrative plan. HUD’s knowledge of the preference is irrelevant to the
            circumstances, since the Authority is required by its Consolidated Annual
            Contributions Contract with HUD and requires the Authority to follow all HUD
            rules and regulations.

Comment 4   The finding is about the improper Moving to Work preference, which directly
            impacted those 71 families on the Housing Choice Voucher waiting list. The
            finding has been revised to show that the preference was ineligible since it was
            not included in the administrative plan as required by HUD regulations.

Comment 5   Payment plans and other methods of repayment can be arranged during the
            Authority’s audit resolution process with HUD.

Comment 6   The recommendation allows for repayment of the Housing Choice Voucher
            program from the Moving to Work program or from nonfederal funds. The
            recommendation gives the Authority some flexibility in the method of repayment.
            This can be determined during the audit resolution process with HUD. The



                                             36
              number 71 was used because 71 families were provided an improper preference
              and were moved up the Housing Choice Voucher program waiting list. This
              occurred because the Authority violated its Moving to Work agreement by
              overleasing the Moving to Work program. Some of the 71 Moving to Work
              participants may have been moved up the Housing Choice Voucher program
              waiting list by as little as a few weeks, while others were moved up by several
              years. As discussed with the Authority’s management, an actual impact
              calculation for every single one of the 71 households over the entire period it
              would take to house those passed up on the waiting list would be significantly
              higher than OIG’s recommendation. OIG exercised its discretion to limit this
              recommendation to a one year period.

Comment 7     OIG agreed to make the suggested clarification.

Comment 8     OIG removed the word “further” from Recommendation 1C. However, OIG
              disagrees with the Authority’s rewrite of the recommendation. The
              recommendation directly relates to the cause of the finding and is designed to
              alert the Authority against any future improper preferences.

Comment 9     OIG understands that there are several mitigating factors the Authority believes
              contributed to the program violations. However, the violations still occurred.
              HUD will implement the recommendations as they determine appropriate during
              the audit resolution process.

Comment 10 The economy and the rental market may have contributed to the Moving to Work
           program overleasing but it is the Authority’s responsibility to manage the
           program in accordance with its agreement and other HUD requirements.

Comment 11 The working preference issue was removed from the report. The Moving to Work
           preference was ineligible since it was not included in the Authority’s
           administrative plan.

Comment 12 Due to the Authority’s overleasing of the Moving to Work program, it improperly
           implemented a waiting list preference. Because the preference was not properly
           implemented, 71 families were improperly moved up on the waiting list. The
           preference would not have been an issue if the Authority had administered its
           Moving to Work program within the 300 family threshold in its agreement.

Comment 13 OIG sees a distinction between the initial 300 vouchers allocated and approved by
           HUD in accordance with its Moving to Work agreement and the Authority’s
           improperly implemented preference that admitted 71 Moving to Work
           participants into the Housing Choice Voucher program. The Authority’s transfer
           of 71 Moving to Work participants clearly violated HUD’s waiting list preference
           requirements.




                                              37
Comment 14 The Housing Choice Voucher program maintains its funds in an interest bearing
           account. Further, the Authority is required (24 CFR 982.155(a)(2)) to credit
           interest earned on the Housing Choice Voucher program operating reserve. If the
           funds had not been loaned to El Camino Village and remained in the interest
           bearing account, the Housing Choice Voucher program would have earned
           interest on $1.4 million over a five year period. Alternatively, if the Authority
           had obtained outside financing from a bank or financial institution to pay for El
           Camino Village construction cost overruns, it would have been charged the
           prevailing interest rates during the period in which the funds were used. OIG
           believes its recommendation to repay interest the Housing Choice Voucher
           program would have earned in its bank account is appropriate.

Comment 15 OIG agrees to change “the development” to “Midway Village” for report clarity.

Comment 16 OIG agrees to remove the reference to the $800,000 contingent liability from the
           report.

Comment 17 OIG agrees to split the two clauses into separate recommendations and remove
           the word “immediately” from the “cease the practice” portion of the
           recommendation.

Comment 18 OIG disagrees with the rewritten finding title. However, all instances of “build
           up” have been removed from the report.

Comment 19     Elements of finding 2 are presented in this finding to clarify for the reader how
              the operating reserve became overdrawn. The finding is not solely a technical
              accounting issue since the Authority was inappropriately loaning current year
              administrative fees and housing assistance payment funds. This is a direct
              violation of the Authority’s Consolidated Annual Contributions Contract with
              HUD. Section 11a of the contract specifically states that program receipts may
              only be used to pay program expenditures. In addition, if this practice continues,
              the Authority could have insufficient resources necessary to operate the Housing
              Choice Voucher program and cover future shortfalls.

Comment 20 Elements of finding 1 are presented in this finding to clarify for the reader how
           the operating reserve became overdrawn. The recommendation has been revised
           to specify three different ways that the Authority can satisfy the recommendation.
           If the Authority chooses one of the methods in the recommendation, there will not
           be any duplicate recording of the transaction. The Authority must properly
           account for the Housing Choice Voucher program operating reserve to ensure that
           it does not violate its Consolidated Annual Contributions Contract with HUD.
           Specifically, it must ensure that it does not use current program receipts for loans
           to other programs.

Comment 21 The Housing Choice Voucher program operating reserve is the amount by which
           the Housing Choice Voucher program administrative fees paid by HUD for a



                                              38
              fiscal year exceed the Authority’s administrative expenses for the fiscal year.
              This is not the Authority’s entire net-worth account. It is a specific equity
              account, which has a specific limited cash source of funding and an explicitly
              designated restricted use. It is imperative that the Authority backs the operating
              reserve with sufficient funds to operate the program and cover future
              administrative fee shortfalls.

              Additionally, OIG disagrees with the Authority’s interpretation of the Real Estate
              Assessment Center, Financial Data Schedule Line Definitions and Crosswalk
              Guide provisions. Financial Data Schedule line 512 definition explicitly includes
              only the unrestricted portion of the HUD account 2826 (Section 8 operating
              reserve), if any [emphasis added]. Neither line 512 (undesignated fund
              balance/retained earnings) nor line 512.1 (unrestricted net assets) provide an
              explicit inclusion of the entire Section 8 operating reserve funds. Federal Fiscal
              Year (FFY) 2004 Consolidated Appropriations Act (Public Law 108-199) [which
              was signed into law on January 30, 2004, and further defined in Notice PIH 2004-
              7 (HA)], places a specific constraint on public housing authorities' administrative
              fee reserve (operating reserve) account by limiting its use only for the provision
              of Section 8 rental assistance. The limitations specified in Public Law 108-199
              constitute specific constraints and restrictions in the use of account 2826 (Section
              8 operating reserve). Therefore, since January 30, 2004, the operating reserve
              fund became a restricted net asset as defined by Financial Data Schedule line
              511.1. Moreover, the Public Law is a statute enacted by Congress, while the
              provisions cited by the Authority have only nonbinding persuasive guide
              authority.

Comment 22 OIG disagrees with the Authority’s recommendation to remove the audit finding.

Comment 23 OIG disagrees with removing all occurrences of the terms “overdrawn” and
           “overdrew”. During the Authority’s fiscal year end 2004, it began to borrow
           more from the operating reserve than it had available. This is illustrated in the
           table in finding 5.

Comment 24 OIG agrees to combine Recommendations 5B and 5D.




                                               39
Appendix C
                                Applicable Regulations
The Moving to Work program agreement states the following:

    •   “This agreement supersedes the terms and conditions of the ACCs [annual contributions
        contract] and the provisions of the U.S. Housing Act of 1937 (1937 Act) and HUD
        requirements to the extent necessary for the agency to implement its MTW
        demonstration, as approved by HUD in this agreement...Except as necessary to
        implement the Agency’s activities as described in the Statement of Authorizations, the
        Agency is subject to the requirements of the ACCs, the 1937 Act, and other HUD
        requirements.” Article 1, section A

    •   On the terms provided in this agreement, the HACSM [Housing Authority of the County
        of San Mateo] is authorized to design and carry out a demonstration program intended to
        promote self-sufficiency. The program may include up to 300 families. Statement of
        Authorizations, section 2B

    •   “Corrective or remedial actions HUD may require or order under this agreement for
        Agency default include, but are not limited to the following: Taking any other corrective
        or remedial action legally available.” Article 3, section C10

24 CFR [Code of Federal Regulations] 982.207(a)(1) states: “PHA selection preferences must
be described in the PHA administrative plan.”

HUD Handbook 7420.6, HUD Program Accounting Handbook, chapter 2, Description of
Accounts - 2826 Reserved Surplus - Operating Reserve - HAP [housing assistance payment]
Projects states: “This account shall be credited (and Account 7016 debited) with the amount by
which total project receipts of the HAP projects exceed the total expenditures for the
administration of such projects for the fiscal year. If the total expenditures exceed the total
project receipts for a fiscal year, the amount of the excess (deficit) shall be debited to this
account (and Account7016 credited), to the extent of the credit balance in this account. The
credit balance in this account shall be available for use by the PHA for projects other than HAP
projects and for other enterprises of the PHA. If this reserve is used for purposes not related to
the HAP projects, this account shall be debited (and Account 1111.1 – Cash credited) for the
amount of cash withdrawn for such other purposes.”

24 CFR [Code of Federal Regulations] 982.155(a) states: “the PHA must credit to the
administrative fee reserve the total of (1) The amount by which program administrative fees paid
by HUD for a PHA fiscal year exceed the PHA program administrative expenses for the fiscal
year; plus (2) Interest earned on the administrative fee reserve.”




                                                40
24 CFR [Code of Federal Regulations] 982.158(a) states: “The PHA must maintain complete
and accurate accounts and other records for the program in accordance with HUD requirements.”

24 CFR [Code of Federal Regulations] 941.306(a) states: “No funds provided by HUD pursuant
to the Act may be used to pay costs in excess of the TDC [Total Development Cost] without the
written approval of HUD.”

24 CFR [Code of Federal Regulations] 968.112(a)(2) states: “For a CIAP [Comprehensive
Improvement Assistance Program], the eligible costs are activities approved by HUD and
included in an approved CIAP budget.”

PIH [Public and Indian Housing] Notice 99-38, section 1-7, states: “Effective immediately
PHAs are permitted to use capital funds for any eligible capital or operating expense if: (1) the
PHA is not designated as troubled; and (2) the PHA operates its public housing in a clean, safe,
and healthy condition as determined by HUD (64 FR 8201, February 18,1999).”

Federal Register, dated February 18, 1999 (64 FR 8201), states: “Subtitle B of the Quality
Housing Work Responsibility Act [QHWRA], Section 519 Public Housing Capital and
Operating Funds amends section 9 of the U.S. Housing Act [USHA] to provide for the
establishment of capital and operating funds with new formulas. Only a few parts of this
statutory section are effective immediately. They are as follows: Use of Capital or Operating
Funds by Small PHAs. New subsection 9(g)(2) of the USHA, added by section 510 of the
QHWRA, allows a PHA with less than 250 dwelling units (small PHAs) to use capital or
operating funds for any eligible capital or operating expense…New subsection 9(a) of the
USHA, however, provides for a merger of remaining CIAP funds into the Capital Fund on
October 1, 1999. With the enactment of new subsection 9(g)(2) and the pending merger of
funds, HUD construes congressional intent to be that small, non-troubled PHAs may
immediately use any CIAP or operating funds for capital or operating purposes.”

Section 9 of United States Housing Act of 1937, as amended (42 USC 1437g(3)(a)), states:
“Limitations on New Construction: ...A public housing agency may not use any of the amounts
allocated for the agency from the Capital or Operating fund for the purpose of constructing any
public housing unit, if such construction would result in a net increase from the number of public
housing units owned, assisted, or operated by the public housing agency on October 1, 1999...”

PIH Notice 04-7 states: “4. Funding for Administrative Costs: The FFY[federal fiscal year]
2004 Appropriations Act stipulates that administrative fees provided from this appropriation
shall only be used for activities related to the provision of Section 8 rental assistance, including
related development activities. Any administrative fees from FFY 2004 funding that are
subsequently moved into the administrative fee reserve account at year end may not be used for
‘other housing purposes permitted by state and local law’ [24 CFR 982.155(b)(1)], and must only
be used for the provision of Section 8 rental assistance, including related development activity.”

24 CFR [Code of Federal Regulations] 982.152(a)(3): “HA [housing authority] administrative
fees may only be used to cover costs incurred to perform HA administrative responsibilities for
the program in accordance with HUD regulations and requirements.”



                                                41
